                                    United States Attorney
                                    Southern District of New York
FOR IMMEDIATE RELEASE    CONTACT:    U.S. ATTORNEY'S OFFICE
MARCH 24, 2011                       ELLEN DAVIS, CARLY SULLIVAN,
                                     JERIKA RICHARDSON, EDELI RIVERA
                                     PUBLIC INFORMATION OFFICE
                                     (212) 637-2600

                                     DOC OIG
                                     RANDALL POPELKA
                                     (202) 482-6108


     MANHATTAN FEDERAL COURT AWARDS OVER $4 MILLION
          IN CIVIL FRAUD CASE AGAINST SCIENTIST

          PREET BHARARA, the United States Attorney for the
Southern District of New York, and TODD J. ZINSER, Inspector
General for the U.S. Department of Commerce, announced today that
DR. D.B. KARRON, a scientist who used research funding from the
U.S. Department of Commerce to pay personal expenses, was found
liable yesterday in Manhattan Federal Court for over $4 million
in treble damages under the False Claims Act. The decision was
issued by the U.S. District Judge NAOMI REICE BUCHWALD.

          Manhattan U.S. Attorney PREET BHARARA said: "Grant
money should not be stolen to subsidize the recipient’s
lifestyle. Dr. Karron took money from deserving scientists and
other grantees engaged in legitimate research to advance medical
science. We are pleased that the Court awarded the maximum
amount of damages in this case, sending the clear message that
there will be a steep price to pay for those who commit grant
fraud."

          U.S. Department of Commerce Inspector General TODD J.
ZINSER said: "This significant result underscores our strong
commitment to protecting Commerce Department grant programs from
fraud and abuse."

          KARRON, who holds a Ph.D. in mathematics, obtained
research funding for a project involving the application of
computer technology and advanced mathematics to medical uses,
with potential benefits in areas including radiation therapy,
surgical planning, intraoperative guidance, and the manufacture
of prosthetic devices. According to the Government’s suit,
KARRON did not spend the funds in accordance with the approved
budget and, instead, used some of the money for unapproved
purposes, despite repeated warnings from grant officials. KARRON
used the money to pay rent and for apartment-related expenses,
including a cleaning service, the installation of track lighting,
and the purchase of household items such as blenders, vacuum
cleaners, power drills, and a GPS navigation system. KARRON also
used the money for restaurant meals and to pay medical expenses
and bills for medications, psychotherapy, dental work and
electrolysis. This conduct led to KARRON’s criminal conviction
in 2008 and the filing of a civil fraud complaint under the False
Claims Act later that year.

          Yesterday’s civil ruling awards treble damages to the
Government based on the full amount of the Government funding
actually drawn down by KARRON, which was $1,345,000.00, holding
that KARRON’s failure to follow the approved budget meant that
the United States received "no tangible benefit" from the
project. The ruling precluded KARRON from contesting civil
liability due to the criminal conviction. It also imposed a
civil penalty of $5,500 for one claim form found to contain a
false statement and permitted the Government to seek additional
penalties with regard to statements made on 19 other forms.

          Mr. BHARARA praised the investigative work of the U.S
Department of Commerce Inspector General.

          The case is being handled by the Office’s Civil Frauds
Unit. Assistant U.S. Attorney MICHAEL J. BYARS is in charge of
the case.


11-82                         ###




                               -2-
